      December 8, 2005




 Defense Infrastructure
 Public-Private Competition for
 Environmental Services at the Navy
 Public Works Center, San Diego,
 California
 (D-2006-036)




This special version of the report has been revised to omit
source selection information.




                  Department of Defense
              Office of the Inspector General
  Quality                 Integrity          Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
FAR                   Federal Acquisition Regulation
IDIQ                  Indefinite-Delivery, Indefinite-Quantity
MEO                   Most Efficient Organization
NAVFAC                Navy Facilities Engineering Command
OMB                   Office of Management and Budget
                                 INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704



                                                                                  December 8,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL
SUBJECT: Report on Public-Private Competition for Environmental Services at the
         Navy Public Works Center, San Diego, California (Report No. D-2006-036)

       We are providing this report for information and use. We performed the audit in
response to a congressional request. No written response to this report was required, and
none was received. Therefore, we are publishing this report in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Henry F. Kleinknecht at (703) 604-9324 (DSN 664-9324) or Ms. Anella J. Oliva at
(703) 604-9323 (DSN 664-9323). See Appendix C for the report distribution. The team
members are listed inside the back cover.
                                   By direction of the Deputy Inspector General for Auditing:


                                      *&.&
                                               Richard B. Jolliffe
                                                   Director
                                        Contract Management Directorate




                                         Special Warning
This special version of the report has been revised to omit source selection information.
                     Department of Defense Office of Inspector General
Report No. D-2006-036                                                                  December 8, 2005
      (Project No. D2005-D000CH-0123.000)

          Public-Private Competition for Environmental Services at the
                Navy Public Works Center, San Diego, California

                                         Executive Summary

Who Should Read This Report and Why? Defense officials responsible for the Office
of Management and Budget (OMB) Circular No. A-76 public-private competitions
should read this report because it addresses certain technical and procedural issues
related to the public-private competition process.

Background. On June 17, 2002, the Department of the Navy announced the decision to
perform a cost comparison of the environmental services function at the Public Works
Center, San Diego, California. The cost comparison is a public-private competition
process required by OMB Circular No. A-76 to compare the cost of Government
performance with contractor performance. One private contractor, Shaw Infrastructure,
Inc., (Shaw) submitted a proposal to compete with the Government most efficient
organization (MEO). On August 16, 2004, the contracting officer conducted the cost
comparison and announced the tentative decision to select the Government MEO to
perform the environmental services at the Navy Public Works Center, San Diego. The
adjusted total cost to contract with Shaw, about $72 million, was approximately
$12 million more than the Government’s adjusted in-house cost of about $60 million.
Shaw appealed the tentative decision, and the Administrative Appeal Authority sustained
three of the five appealed items. On December 3, 2004, the Administrative Appeal
Authority recomputed the cost comparison, and determined the adjusted total in-house
cost should have been about $77 million, approximately $4 million more than Shaw’s
adjusted total contract cost of about $73 million.1 The Administrative Appeal Authority
reversed the tentative decision and ruled in favor of Shaw as the winner of the cost
comparison. The Navy awarded the contract for performance of the environmental
services at the Public Works Center, San Diego, to Shaw on January 12, 2005.

We performed this audit in response to a request from Congresswoman Susan A. Davis
that we review allegations from the employees of the environmental department at the
Navy Public Works Center, San Diego. The employees made ten allegations of
procedural and technical violations during the OMB Circular No. A-76 public-private
competition for the environmental services. The allegations related to the solicitation for
the public-private competition for environmental services and the associated amendments
to the solicitation; the public review period during the administrative appeals process and
the withholding of contractor bid information from the MEO; contract funding; the
timeframe of the competition; the integrity of the study; and the technical evaluation of
Shaw’s proposal. The employees also alleged three potential adverse impacts as a result

1
    Shaw’s adjusted total contract cost increased because it includes the one-time conversion cost and the
    minimum conversion differential. These costs are calculated based on a percentage of the in-house
    personnel costs, which were increased by the appeal.
of the contract award to a private contractor. The potential adverse impacts related to
disruptions of Navy services, an increase in notices of violations, and job loss for the
environmental services employees.

Results. The allegation regarding the amendments to the solicitation was substantiated;
however, it had minimal effect on the MEO and the decision to award performance to a
private contractor. Seven of the allegations were not substantiated, and two were
indeterminable. Although the Navy awarded the contract for environmental services to
Shaw on January 12, 2005, the Government continued to provide service during the
79-day transition period. Shaw assumed operations of the environmental department on
April 1, 2005, and the first performance period of the contract was a 6-month period,
which ended on September 30, 2005. We were unable to substantiate the potential
adverse impacts based on a 6-month period of contractor performance. However, since
Shaw assumed operations, the Navy Public Works Center, San Diego, is responsible for
monitoring Shaw’s performance and taking appropriate action if Shaw does not meet the
performance requirements of the contract. We plan to issue a second report discussing
the importance of monitoring Shaw’s performance to manage any potential adverse
impacts.

Management Comments. We provided a draft of this report on November 18, 2005.
No written response to this report was required, and none was received. Therefore, we
are publishing this report in final form.




                                             ii
Table of Contents

Executive Summary                                i

Background                                      1

Objective                                       3

Managers’ Internal Control Program              3

Finding
     Summary of Allegations and Audit Results    4

Appendixes
     A. Scope and Methodology                   17
     B. Congressional Request                   18
     C. Report Distribution                     19
Background
    We performed this audit in response to a request from Congresswoman Susan A.
    Davis that we review allegations from the employees of the Environmental
    Department at the Navy Public Works Center, San Diego, California. The
    employees alleged several procedural and technical violations during the Office
    of Management and Budget (OMB) Circular No. A-76 public-private competition
    for environmental services. The employees also alleged potential adverse impacts
    as a result of the competition decision to award the environmental services
    function to a private sector provider, Shaw Infrastructure, Inc., (Shaw). We also
    received a similar complaint through the Defense Hotline, which included an
    additional allegation.

    Public-Private Competition for Environmental Services. On June 17, 2002,
    the Department of the Navy announced the decision to perform a cost comparison
    of the environmental services function at the Public Works Center in San Diego,
    California. The cost comparison is a public-private competition process required
    by OMB Circular No. A-76 to compare the cost of Government performance with
    contract performance. About 103 positions were included in the public-private
    competition process. The Navy Public Works Center, San Diego, environmental
    business line falls under the chain of command of Naval Facilities Engineering
    Command (NAVFAC) and is responsible for providing a wide range of
    environmental services to customers throughout the Commander Navy Region
    Southwest area of cognizance. These services included laboratory analysis and
    testing, industrial waste and oily waste treatment, hazardous waste handling and
    treatment, site assessment and remediation, and special projects.

    On October 16, 2003, the Navy issued a solicitation on the NAVFAC
    E-Solicitation Web site for the OMB Circular No. A-76 cost comparison study to
    provide environmental services. The performance work statement was based on a
    standard template to ensure Navy-wide consistency, and included firm-fixed-price
    requirements, which represent ongoing, recurring work; and indefinite-delivery,
    indefinite-quantity (IDIQ) requirements, which represent one-time, nonrecurring
    work. The solicitation set up a three-step source selection process. Step 1 of the
    process included an analysis of each proposing firm’s written statement of
    qualifications. Step 2 of the process involved the submission of written proposals
    detailing each firm’s technical approach and price, and included submission of the
    Government’s most efficient organization (MEO). Step 3 of the process involved
    evaluation of the technical and price proposals, selection of a best value offeror,
    and a cost comparison of the best value offeror and the MEO to determine the
    successful offeror.

    The technical and price proposals for the environmental services were due
    February 13, 2004. Shaw was the only offeror to submit a technical and price
    proposal. After four rounds of discussions with the technical and price evaluation
    boards, Shaw submitted its final technical and price proposals on July 6, 2004.
    On July 12, 2004, the source selection board recommended Shaw as the best
    value contractor, and the source selection authority selected Shaw as the best
    value contractor to compete with the Government MEO in the cost comparison.
    The MEO certified and submitted its in-house cost estimate on July 29, 2004.

                                         1
           On August 16, 2004, the contracting officer conducted the cost comparison and
           announced the tentative decision to select the Government MEO to perform the
           environmental services at the Navy Public Works Center, San Diego. The
           adjusted total cost to contract with Shaw for the services was about $72 million,
           approximately $12 million more than the MEO’s adjusted total in-house cost of
           approximately $60 million. Shaw subsequently appealed the tentative decision on
           September 7, 2004. The MEO did not submit an appeal during the eligible
           period.

           Administrative Appeal. Shaw alleged that the in-house cost estimate did not
           include all costs required by the solicitation. Shaw identified five items that it
           stated were not properly accounted for in the in-house cost estimate. On
           December 3, 2004, the Administrative Appeal Authority sustained three of the
           five appealed items and increased the in-house cost estimate accordingly. The
           three sustained items were as follows.

                    •    The in-house cost estimate did not include the specified IDIQ material
                         “plug” amount of $3 million per year. The MEO stated that IDIQ
                         materials were included elsewhere in its cost estimate, but the Appeal
                         Authority stated that the MEO could not support this claim.

                    •    The in-house cost estimate prorated the costs for IDIQ personnel and
                         associated contract costs instead of including the full workload
                         required in the base year as required by the solicitation. This error was
                         automatically computed by the software used to prepare the in-house
                         cost estimate.

                    •    The in-house cost estimate excluded the cost of a Quality Control
                         Manager, which was required by the solicitation to execute the quality
                         control program.

           The Administrative Appeal Authority recomputed the cost comparison and
           determined the adjusted total in-house cost should have been about $77 million,
           approximately $4 million more than Shaw’s adjusted total contract cost of
           approximately $73 million.1 The Administrative Appeal Authority’s final
           decision reversed the tentative decision and ruled in favor of Shaw as the winner
           of the cost comparison.

           Contract for Environmental Services. On January 12, 2005, the Department of
           the Navy awarded a contract for performance of the environmental services to
           Shaw. During a 79-day transition period, the Government employees were still
           responsible for performance of the environmental services. Shaw fully assumed
           operations of the environmental services department on April 1, 2005. The first
           performance period of the contract ended on September 30, 2005.

           OMB Circular No. A-76 Guidance. The OMB Circular No. A-76 (Revised),
           “Performance of Commercial Activities,” May 29, 2003, (revised circular)

1
    Shaw’s adjusted total contract cost increased because it includes the one-time conversion cost and the
    minimum conversion differential. These costs are calculated based on a percentage of the in-house
    personnel costs, which were increased by the appeal.

                                                       2
    establishes Federal policy regarding the competition of commercial activities.
    The guidance sets forth policy for implementing OMB Circular No. A-76,
    including instructions for using a standard or streamlined competition to
    determine if Government personnel should perform a commercial activity. The
    guidance also requires agencies to centralize oversight responsibility to facilitate
    fairness in competitions and promote trust in the process. The revised circular
    supersedes the previous OMB Circular No. A-76, “Performance of Commercial
    Activities,” August 4, 1983, (Revised) and OMB Circular No. A-76 Revised
    Supplemental Handbook, March 1996 (Revised) (previous circular). The
    previous circular was in effect during the public-private competition for
    environmental services at the Navy Public Works Center, San Diego. All
    public-private competitions announced after May 29, 2003, are subject to the
    rules in the revised circular.


Objective
    Our overall audit objective was to review selected portions of the OMB Circular
    No. A-76 process and the decision to award the environmental services function
    at the Navy Public Works Center, San Diego, California, to a private contractor.
    Specifically, we reviewed the allegations made to Congresswoman Davis to
    determine whether the Navy decision to award the contract to Shaw
    Infrastructure, Inc., was in accordance with appropriate policies and procedures.
    See Appendix A for a discussion of the scope and methodology. See Appendix B
    for the congressional request. This report discusses the allegations; we plan to
    issue a second report discussing the Government offer in public-private
    competitions and the importance of monitoring contract performance.


Managers’ Internal Control Program
    Review of the managers’ internal control program was not an announced
    objective of the audit and we did not complete a review of the program.




                                          3
            Summary of Allegations and Audit
            Results
            The Navy Public Works Center, San Diego, California, environmental
            services employees made eight allegations of procedural violations and
            two allegations of technical violations during the OMB Circular No. A-76
            public-private competition for environmental services. The employees
            also alleged three potential adverse impacts as a result of the contract
            award to Shaw Infrastructure, Inc. One allegation of a procedural
            violation was substantiated, but had minimal effect on the MEO and the
            decision to award performance to a private contractor. Seven allegations
            were not substantiated and two allegations were indeterminable. We were
            unable to make a determination on the results of the three alleged potential
            adverse impacts and plan to issue a second report discussing the
            importance of monitoring contractor performance.


Procedural Issues
     The allegations of procedural violations related to the solicitation for the OMB
     Circular No. A-76 competition for environmental services and the associated
     amendments to the solicitation; the public review period during the administrative
     appeals process and the withholding of contractor bid information from the MEO;
     contract funding; the timeframe of the competition; and the integrity of the study.
     Of the eight procedural allegations, one was substantiated, but had minimal effect
     on the MEO, five were unsubstantiated, and two were indeterminable. A
     discussion of the allegations of procedural violations and our audit results
     follows.

     Procedural Allegation 1. In violation of the Federal Acquisition Regulation
     (FAR), only 1 of 49 plan holders received complete bid information during this
     Web-based solicitation. Of 16 total amendments to the solicitation, only 11 were
     posted to the Web. It appears that the contractor had the benefit of timely access
     to this information and the in-house Government employees did not.

     Audit Results. The allegation was substantiated, but had minimal effect on the
     MEO. There were 18 total amendments to the solicitation, but 2 were issued after
     the allegations were made. The contracting office distributed the amendments by
     posting them to the NAVFAC E-Solicitation Web site; however, amendments 12
     through 15 were not posted or otherwise provided to the MEO at the same time
     they were provided to Shaw, as required by FAR Subpart 15.206. Amendment 16
     corrected an administrative error in Section F, “Performance Period of the
     Contract,” to make it agree with Section B, “Offeror Acceptance,” and was
     provided to the MEO. Amendments 17 and 18 were issued after a final decision
     was reached as a result of the administrative appeal process.

            Amendments Not Posted on the E-Solicitation Web Site.
     Amendments 12 through 15 were not posted on the E-Solicitation Web site or
     otherwise provided to the MEO at the same time as they were provided to the

                                          4
contractor. The contracting officer stated that she realized that the MEO did not
have all amendments during the technical balancing process, which is the process
of comparing the best value contractor proposal with the Government proposal to
assess whether the same level of performance is proposed. According to the
contracting officer, once she realized the error, she transmitted amendments
12 through 15 to the MEO on July 23, 2004. The MEO’s responses to technical
balancing questions were due on July 26, 2004, however, the contracting officer
extended the date to July 28, 2004.

        The contracting officer agreed that it was an error that the MEO did not
receive amendments 12 through 15 at the same time as Shaw. According to the
contracting officer, the amendments did not materially alter the requirements of
the performance work statement and were more clarification in nature, and we
agree with that assessment. Amendments 14 and 15 were administrative.
Although Amendments 12 and 13 clarified portions of the performance work
statement, added four pieces of Government-furnished equipment, and added
some workload data to one of the exhibits, they do not appear to be significant
changes.

       •   Amendment 12, May 28, 2004, extended the date for receipt of the
           technical and price proposals from June 1, 2004, to June 4, 2004, and
           included a page of notes (expectations and interpretations) to the
           standard schedule for pickups of containerized solid waste services.

       •   Amendment 13, June 24, 2004, informed offerors that as a result of the
           fourth round of discussions, revised proposals were due on June 28,
           2004. The amendment also added two washing machines and two
           dryers as additional Government-furnished equipment, and added
           workload data to the textile recycling technical exhibit.

       •   Amendment 14, July 2, 2004, formally closed discussions and
           informed offerors that final proposal revisions were due July 6, 2004.

       •   Amendment 15, July 14, 2004, revised FAR clause 52.207-2, “Notice
           of Cost Comparison,” in the solicitation to change the public review
           period from 30 working days to 15 working days.

        It is important that the contracting officer communicate with the MEO as
if they were another offeror from industry and ensure that they are sent
solicitation amendments concurrently with industry. However, we do not believe
that because the MEO received amendments 12 through 15 later than Shaw, the
in-house offer was adversely impacted.

Procedural Allegation 2. The solicitation date was extended to accommodate
one contractor. While the extension of the solicitation date was communicated to
this contractor, this information was not available to the in-house Government
employees. This action was in further violation of the FAR.

Audit Results. The allegation was unsubstantiated. The solicitation date was not
extended; however Amendment 7 opened discussions with the offeror and stated
that the date of receipt for revised proposals was April 7, 2004. As a result of

                                     5
discussions between Shaw and the Government, Amendments 8 through 14
extended the date for receipt of revised proposals. These discussions were held at
the discretion of the contracting officer. Although amendments 12, 13, and 14
were not provided to the MEO in a timely manner, the extension of the due date
for receipt of proposals did not affect the MEO.

        Discussions Between Shaw and the Government. FAR Subpart 15.306,
“Exchanges With Offerors After Receipt of Proposals,” states that discussions, or
negotiations, are exchanges between the Government and offerors that are
undertaken with the intent of allowing the offeror to revise its proposal. The
primary objective of discussions is to maximize the Government’s ability to
obtain best value, based on the requirements and evaluation factors set forth in the
solicitation. The scope and extent of discussions are a matter of contracting
officer judgment.

         Shaw submitted technical and price proposals during Step 2 of the
solicitation process. The members of the technical and price evaluation boards
reviewed Shaw’s technical and price proposals and briefed their initial findings to
the source selection board on March 9, 2004. After the initial reviews, the source
selection board recommended that the technical and price evaluation boards
conduct discussions with Shaw to resolve the outstanding issues identified during
the initial reviews. On March 16, 2004, the source selection authority approved
the source selection board recommendation that discussions be held with Shaw.

       Discussions were officially opened on March 24, 2004, via amendment 7.
During each round of discussions, the members of the technical and price
evaluation boards reviewed Shaw’s proposal submissions and response to prior
questions, and asked further questions or for clarifications. Four rounds of
discussions were held, from April 19 through July 1, 2004, before the technical
and price evaluation board members rated Shaw’s proposals as acceptable. Each
time the boards requested clarification or asked additional questions, the
contracting officer extended the due date to allow Shaw to respond and revise its
proposal. The contracting officer and legal representative on the source selection
board stated that four discussions were not unusual and that it was in the
Government’s best interest to continue discussions, as allowed by the FAR.

Procedural Allegation 3. All information related to the contractor bid was
withheld from the in-house Government employees in violation of procedural
guidance. All documents related to the Government’s bid were available and
provided to the contractor in full detail, while the contractor bid was redacted and
unavailable to the Employee Appeal Committee during the public review and
administrative appeal period. The employees requested this information, and the
contract specialist overseeing the study denied the request. The result of this
decision, with full transparency of the Government bid to the contractor while
contractor bid information was withheld, was a decision biased in the contractor’s
favor.

Audit Results. The allegation was unsubstantiated. The contracting officer
followed FAR guidance and did not release contractor bid information to the
MEO. We are concerned, however, with the fairness of a process that allows the
contractor access to all information related to the MEO bid during the appeal

                                     6
period, while the MEO cannot review the contractor’s proposal because it is
considered proprietary. This competition was held under the previous circular,
which had an administrative appeal process. Under the revised circular, the
appeal process is eliminated, and the agency tender official, the inherently
Governmental agency official responsible for the MEO, will have the same rights
as the contractor—including the ability to protest the final decision.

        Administrative Appeal Process. The previous circular states that as part
of the administrative appeals process, agencies shall make all relevant documents
available for review. The detailed documentation shall include, at a minimum,
the in-house cost estimate, with detailed supporting data, the completed cost
comparison form, and the management plan.

        The employees requested contractor bid information because they were
relying on draft DoD Handbook 4100.XX-H, “A-76 Cost Comparison Handbook
#7, Public Review and the A-76 Administrative Appeal Process,” October 2000,
which included “the selected contract offeror’s cost proposal” in a list of
documentation generally made available to the affected parties during the public
review period. However, FAR Subpart 3.104-3 does not allow the release of
contractor proposal information before the award of the contract. FAR
clause 52.207-2 does allow the release of the in-house cost estimate when the
tentative decision favors the MEO.

       •   FAR Subpart 3.104-3, “Statutory and Related Prohibitions,
           Restrictions, and Requirements,” states that a person must not, other
           than as provided by law, knowingly obtain contractor bid or proposal
           information or source selection information before the award of a
           Federal agency procurement contract to which the information relates.

       •   FAR clause 52.207-2, “Notice of Cost Comparison (Negotiated),”
           which was included in the solicitation, states that if the result of the
           cost comparison favors Government performance, the contracting
           officer will publicly disclose this result, the completed cost
           comparison form and its detailed supporting data, and the price of the
           offer most advantageous to the Government.

        We asked the DoD Assistant Director of Housing and Competitive
Sourcing why “the selected contract offeror’s cost proposal” was included in a list
of information generally available for review. She stated that the appeal process
was designed to review the bid the Government developed, not the contractor’s
proposal. The Assistant Director stated that the entire handbook series was in no
way designed to provide DoD policy, procedure, or guidance, but was developed
as best practice guidelines. The handbooks were marked as “draft” and were not
finalized. Although the goal was to finalize the handbooks, she stated they were
not able to because OMB started working on the revised circular.

Procedural Allegation 4. Public review period was reduced from 30 days to
15 days to allow a single contractor time to resubmit their bid. During this time,
eligible appellants requested contractor bid information in accordance with
Administrative Appeal Process guidelines (DoD “A-76 Cost Comparison


                                     7
Handbook,” October 2000). This information was withheld from Government
employees.

Audit Results. The allegation was unsubstantiated. Although the public review
period was reduced from 30 working days to 15 working days, the reduced time
period was established prior to the appeals period and was consistent with
applicable guidance. The public review period did not allow a single contractor
time to resubmit their bid, as the allegation states, but was a specific time frame
during which an eligible appellant could submit a cost comparison appeal for
consideration during the administrative appeals period. Additionally, as we stated
in the audit results to Procedural Allegation 3, contractor bid information was
withheld in accordance with the FAR.

        Public Review Period. The FAR states that if the result of the cost
comparison favors Government performance, the contracting officer shall inform
interested parties that the completed cost comparison form and detailed
supporting data relative to the Government cost estimate are available for public
review. The FAR provides for contracting officer discretion on the number of
days allowed for the public review period. Specifically, FAR Subpart 7.306(b)(3)
states:
       The public review period shall begin with the contracting officer’s
       announcement of the cost comparison result and availability of the cost
       comparison forms and detailed supporting data to interested parties.
       The review period shall last for the period specified in the solicitation
       (at least 15 working days, up to a maximum of 30 working days if the
       contracting officer considers the action to be complex).

        As noted in our response to Procedural Allegation 3, the solicitation
included FAR clause 52.207-2, “Notice of Cost Comparison (Negotiated),” which
states that the award is conditioned on the offer remaining the more economical
alternative after completing a public review period of 30 working days and
resolving any requests for review under the agency appeals procedure. According
to the contracting officer, the 30 working day review period included in the
solicitation was an administrative error. Amendment 15 was issued on July 14,
2004, to correct the error and revised the public review period to 15 working days
(22 calendar days). The contracting officer announced the tentative decision to
select the Government to perform the environmental services on August 16, 2004,
and established a 22 calendar day public review period beginning on August 17,
2004, and ending on September 7, 2004.

Procedural Allegation 5. Prior to contract signing, the Government must have
funds appropriated to pay for the contract. It is in direct violation of the FAR to
sign a contract in which funding has not been appropriated. Navy Public Works
Center is a Navy working capital fund organization rather than operations and
maintenance funded. It appears that the contract will be awarded without first
appropriating funding and relying on the commodity income to fund the contract
costs.

Audit Results. The allegation was unsubstantiated. The firm-fixed-price portion
of the contract was funded prior to contract signing, and IDIQ work was not


                                          8
guaranteed by the contract. The contracting officer included the appropriate
clauses in the contract and the minimum guarantee of the contract was funded.

        Contract Funding. FAR Subpart 32.7, “Contract Funding,” describes
basic requirements for contract funding and procedures for using limitation of
cost or limitation of funds clauses. Specifically, FAR Subpart 32.7 states that no
officer or employee of the Government may create or authorize an obligation in
excess of the funds available, or in advance of appropriations, unless otherwise
authorized by law. Before executing any contract, the contracting officer shall
expressly condition the contract on availability of funds in accordance with FAR
Subpart 32.703-2.

       FAR Subpart 32.703-2 states that the contracting officer may initiate a
contract action properly chargeable to funds of the new fiscal year before these
funds are available, provided that the contract includes the clause at 52.232-18,
“Availability of Funds.” It also states that a 1-year indefinite-quantity or
requirements contract for services that is funded by annual appropriations may
extend beyond the fiscal year in which it begins, provided that any specified
minimum quantities are certain to be ordered in the initial fiscal year and the
contract includes the clause at 52.232-19, “Availability of Funds for the Next
Fiscal Year.” Both FAR clause 52.232-18 and FAR clause 52.232-19 were
included in the contract.

        Firm-Fixed-Price Requirements. On January 12, 2005, the Navy
awarded contract no. N68711-03-D-4302 to Shaw for approximately
$8.09 million. The firm-fixed-price portion of the contract with Shaw was about
$4.26 million, which included the base year firm-fixed-price requirements and the
requirements of the phase-in period. The firm-fixed-price portion of the contract
was funded prior to contract signing. On December 28, 2004, the Navy Public
Works Center, San Diego, Commanding Officer authorized $4.26 million in funds
expiring September 30, 2005, to complete the phase-in period and the
firm-fixed-price portion of the contract for environmental services for the Navy
Public Works Center, San Diego.

        Indefinite-Delivery, Indefinite-Quantity Requirements. The IDIQ
portion of the contract was about $3.83 million, which included the base year
IDIQ requirements. The Navy Public Works Center, San Diego, is a Navy
working capital fund organization. A working capital fund organization must
operate much like a business receiving funding from customers rather than
through direct appropriation. Although funding was authorized for the
firm-fixed-price portion of the contract, funding was not authorized for the IDIQ
portion of the contract prior to contract signing. However, the contract included
clause 5252.216-9310, “Combination Firm Fixed Price/Indefinite Quantity
Contract,” from the Navy Facilities Acquisition Supplement, March 2002, also
known as the NAVFAC Contracting Manual. This clause states that the
quantities specified as indefinite quantity are estimates only and may be ordered
by issuance of separate task orders, and that the minimum guarantee of work is
the firm-fixed-price portion of the contract. Additionally, the contract included
FAR clause 52.216-22, “Indefinite Quantity,” which states that the contract is an
indefinite-quantity contract for the supplies or services specified and effective for
the period stated in the schedule. The quantities of supplies and services specified

                                     9
in the schedule are estimates only and are not purchased by this contract.
Delivery or performance shall be made only as authorized by orders issued in
accordance with the ordering clause.

Procedural Allegation 6. The commercial activity competition rules dictated
that the final decision be reached no later than September 30, 2004. The final
decision date exceeded the schedule established in the “Application of the
Deviation to Initiatives in the Department of Defense Transition Plan.” On this
basis, the competition should have been cancelled.

Audit Results. The allegation was unsubstantiated. A tentative decision was
made on August 16, 2004. The final decision was not made until December 3,
2004, because the Administrative Appeal Authority needed additional time to
complete the appeal process.

        OMB Circular No. A-76 Transition. When OMB issued the revised
circular, DoD had 216 competitive sourcing initiatives in progress. The
216 competitive sourcing initiatives had to meet the transition requirements of the
revised circular, or the DoD competitive sourcing official had to request a
deviation from OMB to continue under the previous circular. Of the
216 competitive sourcing initiatives, 150 required a deviation from OMB to
continue under the previous circular, 55 met the transition requirements of the
revised circular permitting them to continue under the previous circular, and 11
were expected to transition to the revised circular. The environmental services
competition at the Navy Public Works Center, San Diego, was one of the
150 initiatives that required a deviation to continue under the previous circular.

        On October 24, 2003, the DoD competitive sourcing official requested a
deviation from OMB for the 150 competitive sourcing initiatives. On
November 17, 2003, OMB authorized DoD to proceed under a deviation for the
limited purpose of completing the 216 competitive sourcing initiatives in the DoD
transition plan. OMB expected DoD to make final decisions for the cost
comparisons no later than September 30, 2004, the completion date projected by
the DoD competitive sourcing official.

        Competition Decision. The contracting officer announced the tentative
decision to select the Government as the provider of the environmental services
on August 16, 2004, and established the administrative appeals public review
period ending on September 7, 2004. The DoD Commercial Activities
Management Information System user guide states that once the tentative decision
is reached, the initiative status changes from in-progress to completed. Shaw
appealed the tentative decision by the established public review deadline. The
Administrative Appeal Authority was required to review the appeal and make a
decision within 30 days. The Appeal Authority was, however, granted two
extensions because of complexities in the appeal. The final decision was made
December 3, 2004.

       If the contractor had not appealed the tentative decision, the final decision
would have been made after the public review period ended on September 7,
2004, well within the September 30, 2004, deadline. Although the contractor
appealed and the final decision was not made until December 3, 2004, it would

                                     10
not have made business sense to cancel the competition. A tentative decision had
been made within the deadline and the competition was nearly complete at that
time. On this basis, we do not believe the competition should have been
cancelled.

Procedural Allegation 7. The Navy Public Works Center competition was
conducted as a pilot with a compressed 18-month schedule, following a draft
protocol reliant upon support from internal Department of Navy resources in
Washington, D.C. This support was withdrawn when new commercial activity
guidelines were issued in 2003, leaving Public Works Center the only fast-tracked
pilot competition to progress to final decision. The pilot competition protocol
was a misguided attempt to mimic the new A-76 rules, which were the subject of
Congressional scrutiny in September 2004.

Audit Results. The allegation was indeterminable based on the information
available. A memorandum was issued establishing the environmental services
competition as a pilot program; however, it did not establish a limited timeframe
to complete the competition. We were unable to support or refute the claim that
support was withdrawn. In addition, while the pilot program did implement rules
similar to those in the revised circular, we were unable to support that it was a
“misguided attempt to mimic the new rules.”

        Pilot Program. The environmental services competition was announced
as a multifunction competition on June 17, 2002. The OMB Circular No. A-76,
Revised Supplemental Handbook, states that cost comparisons of multiple
activities should be completed within 36 months from the date of public
notification; therefore, the environmental services competition should have been
completed no later than June 2005. On August 15, 2002, the Assistant Secretary
of the Navy (Installations and Environment) signed a memorandum which
establishes the competitive sourcing process improvement pilot at the Navy
Public Works Center, San Diego, California. Although the memorandum does
not specifically identify the environmental services competition, it does identify
competitions announced in FY 2002 as part of the pilot program. The pilot
program memorandum does not establish a completion timeframe; however,
various e-mails state the competition was to be completed in 20 months. The
competition took approximately 26 months to complete.

         The pilot program memorandum states that the performance work
statement and MEO teams would have a support contractor and funding for
contractor support would be provided by the Office of the Chief of Naval
Operations. However, the memorandum does not reference any other reliance
upon support from internal Department of Navy resources in Washington, D.C.,
as the allegation states. One of the e-mails the employee representative provided
mentions that a host of advisors, including Washington, D.C., Hawaii, and the
region, would provide support. According to the allegation, this support was
withdrawn when new commercial activity guidelines were issued in 2003, leaving
the Navy Public Works Center, San Diego, the only fast-tracked pilot competition
to progress to final decision. We were verbally informed by multiple people,
including the performance work statement team leader and the MEO team leader,
that at the beginning of the environmental services competition, many people
from the Headquarters level were involved. After the revised circular was issued

                                    11
           in May 2003, the support seemed to disappear. We were unable to support or
           refute this claim.

           Procedural Allegation 8. The contractor at issue, Shaw Environmental and
           Infrastructure, has a history of manipulating the commercial activity contracting
           process. Their performance in this solicitation is consistent with their past
           practices, raising serious questions about the integrity of our public-private
           competition.

           Audit Results. The allegation was indeterminable based on the information
           available. This allegation was based on a previous OMB Circular No. A-76
           competition at Fort Sam Houston, Texas, where the contracting officer found the
           Shaw proposal unacceptable after multiple proposal revisions. During
           discussions and evaluations of Shaw’s Fort Sam Houston proposal, the evaluators
           noted that Shaw had responded to agency concerns regarding staffing levels in
           particular areas by adding staffing in the areas identified but simultaneously
           decreasing staffing in other areas that had been previously determined to be
           adequately staffed. This approach required the agency to completely reevaluate
           the entire proposal, including all areas previously found acceptable, following
           proposal revisions. Shaw protested but the Comptroller General denied the
           protest in Comptroller General Decision B-291121, Matter of Shaw
           Infrastructure, Inc., November 19, 2002.

           The technical evaluation board for the OMB Circular No. A-76 public-private
           competition for environmental services also documented concerns about Shaw’s
           approach for addressing the board’s comments on staffing deficiencies in the
           Shaw proposal. However, the technical evaluation board report states the board
           assumes that Shaw will complete the work because they stated they have
           adequately staffed the functions based on their expertise. In addition, the source
           selection board report states that the board deliberated extensively on these and
           other concerns and “agrees these are weaknesses, however, Shaw will be able to
           accommodate any fluctuations in workload, as it has stated in its responses to
           discussion items.” *2 We do not believe the instance of one Comptroller General
           decision involving the contractor proves a history of manipulating the commercial
           activity process or is a basis to question the integrity of the public-private
           competition.


Technical Issues
           The allegations of technical violations related to the technical evaluation of
           Shaw’s proposal and the final technical evaluation report. Both allegations were
           unsubstantiated.

           Technical Allegation 1. The technical evaluation report assessing contractor
           capability was not certified. Two of the four technical evaluation board members
           refused to sign the technical evaluation report.

2
    This area of the report represents source selection information that was omitted.

                                                       12
           Audit Results. The allegation was unsubstantiated. All four members of the
           technical evaluation board signed the technical evaluation report. However, two
           of the four members disagreed with the contractor’s acceptable rating for
           Subfactor T1.2, capacity to accomplish the work, and attached letters of
           dissention to the final report. See Technical Allegation 2.

           Technical Allegation 2. Two letters of dissention regarding contractor technical
           capability were placed in the file by members of the technical evaluation board.
           These concerns do not appear to have been given due consideration in the final
           decision.

           Audit Results. The allegation was unsubstantiated. Two members of the
           technical evaluation board attached letters of dissention to the final report, but the
           concerns appear to have been given due consideration by the members of the
           source selection board.

                    Technical Evaluation. The source selection plan states that all technical
           evaluation board members must sign the technical evaluation report. If the board
           members are unable to reach unanimous agreement on the content of a report, the
           technical evaluation board chairperson should forward minority reports prepared
           by the dissenting members. The four technical evaluation board members signed
           the final report and submitted the report to the source selection board on July 1,
           2004. The technical evaluation board rated Shaw as acceptable, which meant that
           the proposal met the stated requirements, with no deficiencies, but there may be
           weaknesses that present some risk of unsuccessful contract performance.
           However, two of the four members of the technical evaluation board attached
           letters of dissention regarding the contractor’s acceptable rating for the
           Subfactor T1.2, capacity to accomplish the work, to the final technical evaluation
           report.

                    *3




                   Although not documented, the technical evaluation board members
           verbally stated that they felt pressured to rate Shaw as acceptable. The board
           members expressed frustration with the answers they were receiving from Shaw
           because Shaw did not provide adequate information on how they would
           accomplish the tasks. They also stated that they were unable to develop
           defensible metrics or establish a numerical rating system that would identify the
           contractor’s inability to perform the work. According to the source selection
           board chairperson, she advised the technical evaluation board members that when
           identifying weaknesses within Shaw’s proposal, the board must support its
           findings based upon the criteria established in the solicitation. She further stated
           that the weaknesses identified by the technical evaluation board did not support a
           rating of less than acceptable. The source selection board stated that the technical
3
    This area of the report represents source selection information that was omitted.

                                                       13
           evaluation board concerns were attributed to the board’s unfamiliarity with the
           different process of how Shaw proposed to do the work, as opposed to how the
           Navy performed the work prior to the competition. The source selection board
           members stated that Shaw proposed the minimum bid based on the performance
           work statement requirements.

                  Source Selection Evaluation. The technical evaluation board
           chairperson briefed the source selection board on July 1, 2004. *4




                  The source selection board stated that after the briefings from the price
           and the technical evaluation boards, the source selection board members
           deliberated extensively on the overall findings of the evaluation boards. The
           source selection board’s final report stated that the board acknowledged the
           concerns of the dissenting technical evaluation board members and the
           weaknesses identified in the technical evaluation board report, and agreed that
           Shaw’s proposal had weaknesses. *4




Potential Adverse Impacts
           The three allegations of potential adverse impacts related to disruption of Navy
           services, an increase in notices of violations, and job loss for the environmental
           services employees. Although the Navy awarded the contract to Shaw on
           January 12, 2005, during the 79-day transition period, the Government continued
           to provide service. Shaw assumed operations of the environmental department on
           April 1, 2005, and the first performance period of the contract was a 6-month
4
    This area of the report represents source selection information that was omitted.

                                                       14
period that ended on September 30, 2005. We were unable to substantiate the
potential adverse impacts based on a 6-month period of contractor performance.
Since Shaw assumed operations, the Navy Public Works Center, San Diego, is
responsible for monitoring Shaw’s performance to determine whether they are in
compliance with the contract. We plan to issue a second report discussing the
importance of monitoring Shaw’s performance to manage any potential adverse
impacts.

Potential Adverse Impact 1. Adverse impacts to Navy fleet operations are
expected as a result of disruption of hazardous waste pickup and disposal services
and oily waste treatment operations.

Audit Results. According to the contracting officer and the regional compliance
manager, service to the Navy Fleet Operations has not been disrupted as a result
of the change in service. Although Shaw sometimes did not complete the work in
the proposed amount of time, the regional compliance manager did not consider it
a disruption and stated it was going to take time for everyone to adjust. We were
unable to substantiate disruption of hazardous waste pickup and disposal services
and oily waste treatment operations on a 6-month period of contractor
performance. The Residual Organization, composed of Navy Public Work Center
employees, is responsible for monitoring Shaw’s performance and taking
appropriate action, as necessary, to ensure Shaw performs the contract
requirements.

Potential Adverse Impact 2. Notices of violation from regulatory agencies are
expected to increase as a result of this decision, which will be costly and have an
adverse impact on the Navy fleet.

Audit Results. The regional compliance manager stated that since Shaw began
performance on April 1, 2005, ten notices of violation were received at facilities
operated by Shaw or one of Shaw’s subcontractors; however, five of the
violations were the Government’s responsibility because they were findings
associated with issues prior to Shaw taking over operations. The regional
compliance manager stated that the violations Shaw has received are similar in
nature to those that the Navy Public Works Center, San Diego, received in the
past. We do not have adequate data to determine whether the number of
violations has increased. The Residual Organization needs to closely monitor and
document Shaw’s performance so that action can be taken if the number of
violations increases.

Potential Adverse Impact 3. Approximately 100 constituents who have
demonstrated commitment to the success of the department and protection of the
environment now face job loss as a result of this flawed decision.

Audit Results. Regardless of the outcome of a public-private competition, job
loss generally occurs. The Government Accountability Office report, “Effects of
A-76 Studies on Federal Employees’ Employment, Pay, and Benefits Vary,”
March 2001, states that personnel reductions are key to achieving reduced costs
from A-76 competitions. In addition, the Center for Naval Analyses report,
“Analysis of DFAS Military Retired and Annuitant Pay Sourcing Options,”
September 2003, states that “in any public-private competitions, even

                                     15
           competitions when the MEO prevails, jobs are put at risk, and there is generally a
           Reduction-In-Force as a result of jobs being eliminated and grades being
           reduced.” Therefore, it is true that the Government employees who performed
           this function were at risk of losing their jobs.

                   Reduction In Force. On December 3, 2004, the final decision was made
           to award the environmental services function to Shaw. Although 103 positions
           were affected when the Navy announced the public-private competition in
           June 2002, on December 10, 2004, there were 77 environmental services
           employees5 whose positions were scheduled to be eliminated. As a result of the
           reduction-in-force process, all 77 positions were eliminated and 25 environmental
           services employees were involuntarily separated from the Government. Ten of
           the 25 involuntarily separated employees were employed by Shaw as of July 26,
           2005. The following table shows the status of the 77 affected environmental
           services employees.


                              Navy Public Works Center Affected Positions

                                                                                        Employed
                              Status                      Number of Employees            by Shaw

                   Retained Government jobs
                       Downgraded to lower grade level             6                        -
                       Stayed at the same grade level             38                        -
                        Subtotal                                  44                        -

                   Retired from Government
                       Regular                                     2                       1
                       Early                                       3                       0
                         Subtotal                                  5                       1

                   Separated from Government
                       Resigned                                    3                       0
                       Involuntary separation                     25                      10
                        Subtotal                                  28                      10

                            Total                                 77                      11




5
    The reduction in force announcement dated December 10, 2004, states that 78 employees would be
    affected; however, one employee listed onboard as of December 10, 2004, had already resigned from the
    Government on September 20, 2004.


                                                    16
Appendix A. Scope and Methodology
    We performed this audit in response to a request from Congresswoman Davis to
    review the Navy Public Works Center, San Diego, environmental department
    employees’ allegations concerning the public-private competition for
    environmental services at the Navy Public Works Center, San Diego, California.
    The allegations consisted of seven procedural issues, two technical issues, and
    three potential adverse impacts as a result of the contract award to Shaw
    Infrastructure, Inc. We received a similar complaint through the Defense Hotline.
    In addition to the allegations submitted through the congressional request, the
    Hotline complaint included an eighth procedural issue. We plan to issue a second
    report discussing the Government offer in public-private competitions and the
    importance of monitoring contract performance.

    We met with Navy and NAVFAC strategic sourcing officials. We interviewed
    and obtained documentation from individuals involved in the public-private
    competition, including members of the source selection board and the technical
    evaluation board, the agency tender official, the MEO team leader, the
    performance work statement team leader, the contracting officers, the MEO legal
    advisor, and the employee representative. We met with the regional compliance
    manager to obtain information on violations and disruptions to Navy service. We
    reviewed additional letters from employees of the Navy Public Works Center, San
    Diego.

    We reviewed the FAR, applicable OMB Circular No. A-76 guidance, and DoD
    directives and instructions related to the competitive sourcing program. We
    reviewed documentation from the public-private competition, including the
    solicitation, amendments, performance work statement, and Shaw’s technical and
    price proposals. We reviewed reports from the price evaluation board, technical
    evaluation board, and source selection board. We also reviewed the
    Administrative Appeal Authority report. We reviewed the contract,
    modifications, and other documentation used in the public-private competition.
    We reviewed monthly performance reports from April through July 2005.

    We performed this audit from February through November 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Infrastructure Management and Defense
    Contract Management high-risk areas.


Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.
                                        17
Appendix B. Congressional Request




                     18
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Navy Public Works Center, San Diego

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform



                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
Honorable Susan A. Davis, U.S. House of Representatives




                                        20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Henry F. Kleinknecht
Anella J. Oliva
Rebecca L. Yovich
Jamie E. Olivo
Jillisa H. Milner
